HHS/OIG, Audit -"Medicaid Hospital Outlier Payments in North Carolina for State
Fiscal Years 1998 through 2002,"(A-07-04-04038)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Hospital Outlier Payments in North Carolina for State
Fiscal Years 1998 through 2002," (A-07-04-04038)
January 20, 2006
Complete
Text of Report is available in PDF format (1.25 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether North Carolinas inpatient hospital
cost outlier payments were budget neutral.  They were not.  Outlier payments consistently
exceeded the 7.2 percent reduction in diagnosis-related group (DRG) payments.  From
State fiscal years 1998 through 2003, the average cost outlier payment per discharge increased
by 128.1 percent, whereas the average DRG base payment per discharge increased by only 14.3
percent.  We recommended that North Carolina revise its current Medicaid outlier payment
policy to ensure that future outlier payments achieve budget neutrality and also that the
State develop policies and procedures to more closely monitor cost outlier payments.  North
Carolina disagreed.